<html>
<title> - THE 9/11 REFORM ACT: EXAMINING THE IMPLEMENTATION OF THE HUMAN SMUGGLING AND TRAFFICKING CENTER</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                     THE 9/11 REFORM ACT: EXAMINING
                    THE IMPLEMENTATION OF THE HUMAN
                    SMUGGLING AND TRAFFICKING CENTER

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                       INTEGRATION, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 8, 2006

                               __________

                           Serial No. 109-68

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                    U.S. GOVERNMENT PRINTING OFFICE
36-544                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012007


                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

         Subcommittee on Management, Integration, and Oversight



                     Mike Rogers, Alabama, Chairman

John Linder, Georgia                 Kendrick B. Meek, Florida
Mark E. Souder, Indiana              Edward J. Markey, Massachusetts
Tom Davis, Virginia                  Zoe Lofgren, California
Katherine Harris, Florida            Sheila Jackson-Lee, Texas
Dave G. Reichert, Washington         Bill Pascrell, Jr., New Jersey
Michael McCaul, Texas                Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex          (Ex Officio)
Officio)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Management, 
  Integration, and Oversight.....................................     1
The Honorable Kendrick Meek, a Representative in Congress From 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Integration, and Oversight.........................     2
The Honorable Katherine Harris, a Representative in Congress From 
  the State of Florida...........................................    12
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    22
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................    21
The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington........................................    20

                               Witnesses

Mr. John Clark, Deputy Assistant Secretary, Immigration and 
  Customs Enforcement, U.S. Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7
Mr. Mare Gorelick, Acting Director, Human Smuggling and 
  Trafficking Center, U.S. Department of State:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Mr. Chris Swecker, Acting Executive Assistant Director of Law 
  Enforcement Services, U.S. Department of Justice:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11

                             For the Record

Ms. Susan Ginsburg, Nonresident Fellow, Migration Policy 
  Institute:
  Prepared Statement.............................................    23


                     THE 9/11 REFORM ACT: EXAMINING



    THE IMPLEMENTATION OF THE HUMAN SMUGGLING AND TRAFFICKING CENTER

                              ----------                              


                        Wednesday, March 8, 2006

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                Subcommittee on Management,
                                 Integration and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:30 p.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Harris, Reichert, Meek, 
Jackson-Lee, and Pascrell.
    Mr. Rogers. The Subcommittee on Management, Integration and 
Oversight will come to order. Today we are holding a hearing to 
discuss the Human Smuggling and Trafficking Center. This 
facility was established by the 9/11 Reform Act and is designed 
to combat terrorist travel. Let me begin by welcoming our panel 
of guests to this hearing.
    Also I want to recognize our colleague from Florida, Ms. 
Harris, who has been a leader in addressing problems associated 
with human trafficking.
    The 9/11 Commission correctly pointed out that before 
September 11, 2001, no U.S. Government agency systemically 
analyzed terrorists' travel strategies. The 9/11 Commission 
also believed if the Federal Government had done so, we could 
have discovered how terrorist predecessors to al-Qa'ida 
exploited the weaknesses in our border security.
    As a result, and based on the Commission's recommendation, 
the Committee on Homeland Security, along with the Committee on 
International Relations, pushed for the terrorist travel 
provisions in the 9/11 Reform Act.
    Through the Act, Congress directed the Departments of 
Justice, State and Homeland Security to address the problem of 
terrorist travel, including human smuggling and trafficking, in 
a comprehensive way. The result was the Human Smuggling and 
Trafficking Center.
    We look forward to hearing about the effectiveness of the 
Center today, as well as challenges to this interagency effort.
    I now yield to our Ranking Member, Mr. Meek, from Florida 
for any statement he may have.
    Mr. Meek. Thank you very much, Mr. Chairman. I want to not 
only thank you and Ms. Harris but also our witnesses for being 
a part of this discussion today. I know our time is limited on 
this hearing, so I am going to make my opening comments very 
brief.
    Mr. Chairman, as you know, this is a major issue to our 
country. And as we start looking at protecting our borders and 
also protecting those individuals that are victims of smugglers 
and others that are out there, that is our biggest challenge. I 
know that this office is one of the offices that we are going 
to be talking about today, is only staffed with 12 individuals 
to deal with the whole country on this subject. I am looking 
forward to hearing from all of our witnesses here today on how 
we can accomplish that and if they are getting full cooperation 
from other Federal agencies to combat human smuggling and also 
cutting down on trafficking or possible terrorist travel.
    So with that, Mr. Chairman, I would yield back the balance 
of my time so that hopefully we can get to these witnesses.
    Mr. Rogers. I now recognize the Gentlelady from Florida for 
any opening statement she may have.
    Ms. Harris. Thank you, Mr. Chairman, and good afternoon. I 
wish to express my gratitude to you, Mr. Chairman, for granting 
my request to bring this important issue out of the shadows and 
into a public forum, and I also want to thank all our witnesses 
today on both panels for their contributions to the 
subcommittee's examination of the implementation status of one 
of the key provisions outlined in the 9/11 Reform Act, the 
Terrorist Travel and Human Smuggling and Trafficking Center.
    We are here today in order to determine the extent to which 
this interagency effort is meeting the statutory intent of the 
law. The Committee on Homeland Security was instrumental in 
ensuring the inclusion of these terrorist travel provisions in 
the 9/11 Reform Act, including section 7202, which would 
authorize the Human Smuggling and Trafficking Center.
    The exercise of this committee's oversight responsibilities 
demand that we ascertain whether the current staff structure, 
the funding levels and the overall strategy are sufficient to 
ensure compliance with the statutorily defined mission of the 
Center. And if not, we must resolve to identify and address any 
of these insufficiencies.
    Today, the integrity of our immigration system and our 
Nation's security is comprised of three increasingly pervasive 
threats: Clandestine terrorist travel, sex trafficking and 
human smuggling. These criminal acts may be a distinct 
phenomenon, but they share a number of unique characteristics, 
and it is essential that we first understand the subtle 
differences between the crimes.
    The crime of clandestine terrorist travel acts involves 
surreptitious movements of the terrorists by means of 
fraudulent documentation or alias support of a terrorist 
operation, often with the help of illicit travel networks, 
which can either be terrorist or criminal networks.
    The sex trafficking involves the exploitation of people 
through force, coercion, threats, or deception, and includes 
human rights abuses such as debt bondage, deprivation of 
liberty or lack of control over their freedom and labor.
    Trafficking can be for purposes of sexual exploitation or 
labor exploitation and accordingly the INS estimates that the 
trafficking of human beings, including sex trafficking, exceeds 
$10 billion in the global industry that now compromises the 
third largest source of money for organized crime after drugs 
and arms.
    Human smuggling, on the other hand, is defined as the 
facilitation, transportation or attempted transportation or 
illegal entry of persons across an international border in 
violation of one or more of the country's laws. In many cases, 
individuals engaged in human smuggling do so willingly and 
voluntarily.
    The conditions which give rise to terrorist travel, sex 
trafficking and human smuggling, as well as the modes, methods 
and means of transportation are often similar. The absence of 
moral conscience and willingness to engage in these unspeakable 
acts of brutality is evident in the terrorists and traffickers 
alike.
    In Florida the threat is a particular concern because of 
our State's designation as one of the top three destination 
States within the U.S. for trafficking of victims.
    Florida's demographics are a large number of immigrants and 
the presence of 12 international airports, 14 deep water 
seaports and our significant water borders that make our State 
particularly attractive to traffickers and terrorists.
    The grave nature of this threat was acknowledged in the 9/
11 Commission's report on August 2004 in the recommendations. 
And in response to the Commission's proposals, Congress passed 
the Intelligence Reform and Terrorist Prevention Act of 2004, 
also called the 9/11 Reform Act. Many of the provisions were 
designed to eradicate the institutional weaknesses that led to 
the Government's failure to adequately protect our Nation from 
terrorist attack and in particular for its failure to, quote, 
connect the dots.
    The terrorist exploitation of our transportation and 
immigration system galvanized the Commission's focus on the 
need to combat terrorism by targeting terrorist travel. The 
Commission recommended, and I quote, targeting travel is at 
least as powerful a weapon against terrorists as targeting 
their money. The United States should combine terrorist travel 
intelligence operations and law enforcement into a strategy to 
intercept terrorists, find terrorist travel facilitators, and 
constrain terrorists' mobility, end quote.
    The Center constituted an integral component of an overall 
strategy to combat all violations of our immigration system, 
and as asserted in the Center's charter, quote, migrant 
smuggling, trafficking in persons and clandestine terrorist 
travel are transnational issues that threaten national 
security. They also raise significant human rights and rule of 
law concerns.
    Finally, there is no ambiguity in the law with regard to 
this center's function. Section 7202 clearly states that the 
primary function of the Center is that it shall serve as the 
focal point for the interagency efforts to address terrorist 
travel.
    And today I wish to clarify that Congress' intent was for 
the Federal Government to address the problem of terrorist 
travel, including the ancillary crimes of human smuggling and 
sex trafficking, in a coordinated and comprehensive way. The 
subsequent meetings held by the committee with the staffs of 
the 9/11 Commission of the Human Smuggling and Trafficking 
Center, the Center's significant potential to play a key roll 
in combating terrorist travel emerged.
    It is for this reason that the Committee on Homeland 
Security, along with International Relations Committee pushed 
for the statutory authorization of the Human Smuggling and 
Trafficking Center. However, I am concerned by the reports that 
this Center lacks sufficient resources, including a dedicated 
full-time staff, dedicated management, and dedicated 
appropriations needed for the Center's fulfilling of the 
legislative intent.
    In a time of limited resources, it is incumbent upon 
Members of Congress to ask each agency the tough questions, how 
does your agency envision the future of the Center, is the 
Center adequately staffed, funded and organized in order to 
fulfill its mission, does it have the appropriate leadership 
involved, and what obstacles exist to the Center's receiving 
full support?
    Again, I wish to thank the witnesses for appearing today, 
and I look forward to hearing their testimony. I now yield back 
to the ranking member for any opening statement that he may 
have.
    Mr. Rogers. I want to thank the witnesses. We have a very 
distinguished panel with us now. We thank you for being here. 
And I want to let you know your entire statements will be 
submitted for the record in their entirety. But I would ask so 
that we can get to the questions that you limit your comments 
to 5 minutes.
    We are going be called for votes at about 3:30. We would 
like to wrap this up so we don't keep you waiting here for an 
hour while we are over there voting.
    So with that, the Chair now recognizes Mr. John Clark, 
Deputy Assistant Secretary of Immigration and Customs 
Enforcement of the U.S. Department of Homeland Security, for 
any statement he may have.

     STATEMENT OF JOHN CLARK, DEPUTY ASSISTANT SECRETARY, 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Clark. Chairman Rogers, Ranking Member Meek and 
distinguished members of the subcommittee, it is an honor for 
me to appear before you today to share the Department of 
Homeland Security's role in the implementation of the Human 
Smuggling and Trafficking Center and the Department's 
commitment to its critical mission.
    I would like to stray a little from my written statement in 
giving my oral summary. I have two reasons for doing so. The 
first is I want to more concretely underscore the strong 
relationship Department of Homeland Security is developing with 
the Human Smuggling and Trafficking Center. It is a 
relationship that is maturing and growing as the Center and 
Department move beyond our first years of existence.
    The second reason is not to wave the flag of immigration 
and customs enforcement, or ICE, but as an executive of ICE to 
also underscore a part of the reason as to why I am appearing 
before you today representing the Department of Homeland 
Security at this hearing.
    The mission of the Center marries very well into part of 
the core mission of ICE. My agency has the primary Federal 
responsibility for investigating transnational organizations 
responsible for human smuggling and trafficking. The Center 
provides a venue in which various agencies within DHS, but 
principally ICE, can share all information on these 
organizations, classified or otherwise, and work 
collaboratively with our partners in DOJ, State and the 
Intelligence Community to ensure that criminal organizations 
involved in human smuggling and trafficking aren't also 
connected with terrorism.
    Should we identify any such links, we are able to 
seamlessly hand off to the FBI, the agency with primary 
jurisdiction for such terrorist related investigations. There 
is currently no other center that provides such a venue.
    From the perspective of the Department, the Center has been 
providing strategic operational and tactical information as 
well as analytic support, which has supported ICE smuggling 
investigations, human smuggling investigations, and have 
resulted in the disruption and/or dismantling of criminal 
travel networks engaged in the movement of foreign nationals of 
special interest to the United States.
    I would like to summarize some of these contributions, with 
the understanding that some of the locations have been 
generalized due to the ongoing nature of the investigation and 
the nature that the Center supports us.
    For example, the Center provided valuable support for an 
ICE investigation conducted by one of our field offices in the 
northeastern United States that focused on a travel network 
engaged in the smuggling of Indian nationals through the 
Caribbean and South America. The investigation disclosed that 
these smugglers had engaged in the illegal movement of special 
interest aliens. Both smugglers were indicted and are in U.S. 
custody at this time.
    In a recent event, a flagless fishing vessel transporting 
over 100 migrants capsized in the Pacific Ocean off the coast 
of South America while en route to Central America. This Center 
rapidly provided tactical information to ICE investigators and 
DOJ officials who deployed to South America to assist the host 
government in the ensuing criminal investigation. The 
collaborative efforts of both governments led to the arrest by 
the foreign authorities of the smuggler responsible for the 
tragedy.
    During an ICE human smuggling investigation, the Center 
provided intelligence information that was shared with the 
foreign government. The foreign government detained the ICE 
suspect in accordance with international law. The detention of 
the subject allowed both the United States and the foreign 
government to use the United Nations Convention Against 
Transnational Organized Crime, specifically the Protocol 
Against the Smuggling of Migrants, for the first time for both 
countries in making extradition to the United States legally 
possible. The extradition has been granted, although it is 
still pending an appeal by the subject in that country.
    The subject was identified as a member of a criminal 
organization engaged in the smuggling of Albanian and 
Macedonian nationals. This criminal organization procured 
fraudulent travel documents to facilitate the movement of 
foreign nationals through Europe and South America with the 
United States as the ultimate destination.
    ICE has unparalleled experience investigating organizations 
in both human smuggling and trafficking of persons. In fiscal 
years 2004, 2005 ICE human smuggling and trafficking 
investigations resulted in approximately 4,000 arrests, 2,000 
indictments, and more than 1,500 convictions. As it pertains to 
significant travel networks, ICE engages in multiagency 
intelligence driven targeting.
    As a result of these U.S. Government targeting efforts, 
ICE-led investigations have resulted in the disruption and/or 
dismantling of 24 signify criminal travel networks engaged in 
the global movement of third country nationals, mostly foreign 
nationals of countries of interest to the United States.
    In their similar initiative abroad, the U.S. Ambassador to 
Mexico requested that the U.S. Embassy's Fusion Center be 
renamed the Alien Smuggling Coordination Center, ASCC, with a 
refocused mission on human smuggling travel patterns of third 
country nationals. The Ambassador requested that ICE assume the 
U.S. government lead for the operational responsibilities of 
the new ASCC.
    To that end, ICE has allocated manpower, inclusive of a 
designated agent to coordinate the implementation of the ASCC 
and to collaborate with all U.S. Government stakeholders at 
post. The ASCC is intended to operate in the U.S. Embassy in 
Mexico along similar lines of the HSTC by bringing 
representatives from Law Enforcement and Intelligence and State 
to share and review data on human smuggling and trafficking 
organizations looking for any connections with terrorism and 
enhanced enforcement actions as appropriate.
    As it relates to trafficking in persons, ICE has an 
unprecedented role in preventing the revictimization of 
trafficking victims through the issuance of short-term 
immigration relief in the form of continued presence. Although 
there are several government entities involved in the fight 
against trafficking in persons, ICE is the single Federal 
entity authorized to provide CP for victims of trafficking. 
Within that context, in 2005, ICE agents sponsored 78 percent 
of all initial requests and extensions for CP governmentwide.
    These statistics illustrate the significant contribution by 
ICE as it relates to investigations of individuals and criminal 
organizations engaged in the exploitation of men, women and 
children for the purpose of commercial, sex or forced labor. To 
that end, ICE has 305 collateral duty victim witness 
coordinators who work with nongovernment organizations to 
assist in the provision of victim services.
    Finally, in the Global Trafficking in Persons, or G-TIP 
program, the Department of Homeland Security works 
cooperatively with the Department of State and justice. ICE 
manages some of the G-TIP projects with the overall goal of 
building foreign government capacity to increase the 
effectiveness of their anti-trafficking law enforcement 
efforts.
    Additionally, ICE seeks to develop and conduct joint 
bilateral investigations to dismantle criminal organizations 
engaged in the trafficking of persons. The ICE Office of 
Investigations provides oversight, guidance and support to 
ongoing criminal trafficking and child sex tourism 
investigations, both domestically and internationally.
    ICE coordinates and shares information and intelligence 
with the Center. The Department participates in the Senior 
Policy and Operating Group, or SPOG, and the Peer Review Panel, 
both established by the President's G-TIP Initiative.
    The men and women of DHS are grateful for the chance to 
serve the American people on their behalf. I thank you and your 
colleagues for the continued support for the Department and the 
Human Smuggling and Trafficking Center, and I would be pleased 
to answer any of your questions.
    [The statement of Mr. Clark follows:]

                   Prepared Sttement of John P. Clark

    Chairman Rogers, Ranking Member Meek and distinguished members of 
the subcommittee, it is an honor for me to appear before you today to 
share the Department of Homeland Security's role in the implementation 
of the Human Smuggling and Trafficking Center (Center) and the 
Department's commitment to its critical mission.
    Criminal travel networks pose a threat to our national security by 
providing a readily available conduit through which persons potentially 
seeking to harm United States interests can enter our country. These 
networks, primarily engaged in human smuggling and trafficking in 
persons, rely on highly effective transnational alliances involving 
service providers such as recruiters, brokers, document manufacturers, 
transporters and corrupt government officials. To effectively cripple 
these criminal travel networks at source and transit countries, as well 
as in the United States, interagency cooperation and information 
exchange are of the utmost importance.
    To this end, in July 2004, the Secretary of State, the Secretary of 
Homeland Security and the Attorney General created the Human Smuggling 
and Trafficking Center. In December 2004, the Congress formalized the 
establishment of the Center in Section 7202 of the Intelligence Reform 
and Terrorism Prevention Act of 2004.
    Since its inception, the Department of Homeland Security has fully 
supported this very important interagency venture. The Department, 
through a senior manager from U.S. Immigration and Customs Enforcement 
(ICE), served as the first director of the Center. In recognition of 
our continuing commitment to the Center, DHS has forwarded the 
nomination of another ICE executive to the steering group for 
consideration. In addition, DHS Assistant Secretary Randy Beardsworth 
has been involved in guiding the Center by serving as Co-Chair and as 
the Senior DHS representative to the Center's Steering Group.
    The Department of Homeland Security has contributed a significant 
and expanding presence at the Center. In FY 05, DHS had six 
representatives assigned to the Center. ICE had five full-time 
personnel from the Offices of Investigations and Intelligence and the 
U.S. Coast Guard (USCG) assigned one intelligence analyst. In FY 06, 
the ICE personnel assigned to the Center will reach seven 
representatives: six investigators, one of which will be the Center 
Director, and one intelligence analyst. Analysts from DHS's Office of 
Intelligence and Analysis (I&A), and the USCG are planning to assign 
additional personnel to the Center to enhance the Center's 
capabilities.
    With respect to budget for the Center, the Department has entered 
into a cost reimbursement agreement with the Departments of State and 
Justice to address operating expenses for fiscal years 2005 and 2006. 
The Center and its stakeholders continue to work to identify the scope 
of the Center's long-term resource needs.
    The Center has made significant achievements, including meeting 
statutory requirements of the Intelligence Reform and Terrorism 
Prevention Act of 2004, such as the President's 180-Day Report to 
Congress relating to the establishment of the Human Smuggling and 
Trafficking Center and the Vulnerabilities Assessment produced jointly 
with the National Counter-Terrorism Center. The latter product focused 
on vulnerabilities in the U.S. and international travel systems that 
can be exploited by terrorists, smugglers and human traffickers.
    In addition to meeting statutory requirements, the Center has 
produced valuable intelligence assessments of countries in Latin 
America and Asia as well as an assessment of the Document Fraud 
industry in a specific country. As part of the Security and Prosperity 
Partnership, a trilateral initiative between the governments of Mexico, 
Canada and the United States, the Center was tasked to conduct a joint 
U.S./Canada assessment on Trafficking in Persons.
    From the perspective of the Department, the Center has been 
providing strategic, operational and tactical information as well as 
analytical support, which have supported ICE human smuggling 
investigations and have resulted in the disruption and/or dismantling 
of criminal travel networks engaged in the movement of foreign 
nationals of special interest to the United States.
    I would like to summarize some of these contributions with the 
understanding that some of the locations have been generalized due to 
the ongoing nature of the investigations and the nature of the Center's 
support to us. For example, the Center provided valuable support for an 
ICE investigation conducted by one of our field offices in the 
northeastern United States that focused on a travel network engaged in 
the smuggling of Indian nationals through the Caribbean and South 
America. The investigation disclosed that these smugglers had engaged 
in the illegal movement of Special Interest Aliens. Both smugglers were 
indicted and are in U.S. custody at this time.
    In a recent event, a flagless fishing vessel transporting over 100 
migrants capsized in the Pacific Ocean off the coast of South America 
while en route to Central America. The Center rapidly provided tactical 
information to ICE investigators that had deployed to South America to 
assist the host government in the criminal investigation. The 
collaborative effort of both governments led to the arrest by the 
foreign authorities of the smuggler responsible for the tragedy.
    During an ICE human smuggling investigation, the Center provided 
intelligence information that was shared with a foreign government. The 
foreign government detained the ICE suspect in accordance with 
international law. The detention of the subject allow both the United 
States and the foreign government to use the United Nations Convention 
Against Transnational Organized Crime; specifically, the Protocol 
Against the Smuggling of Migrants, for the first time for both 
countries and make an extradition to the United States legally 
possible. The extradition has been granted, although it is still 
pending appeal by the subject in that country. The subject was 
identified as a member of a criminal organization engaged in the 
smuggling of Albanian and Macedonian nationals. This criminal 
organization procured fraudulent travel documents to facilitate the 
movement of foreign nationals through Europe and South America, with 
the United States as the ultimate destination.
    Lastly, in the Global Trafficking in Persons (G-TIP) program, the 
Department works cooperatively with the Departments of State and 
Justice. ICE manages some of the G-TIP projects with the overall goal 
of building foreign government capacity to increase the effectiveness 
of their anti-trafficking law enforcement efforts. Additionally, ICE 
seeks to develop and conduct joint bilateral investigations to 
dismantle criminal organizations engaged in the trafficking in persons. 
The ICE Office of Investigations provides oversight, guidance and 
support to ongoing ICE criminal trafficking and child sex tourism 
investigations, both domestically and internationally. ICE coordinates 
and shares information and intelligence with the Center. The Department 
participates in the Senior Policy Operating Group (SPOG) and on the 
Peer Review Panel, both established by the President's TIP Initiative. 
The ICE TIP efforts are provided to and included in the semiannual 
Department of State G-TIP POTUS Initiative Program Status Report, and 
to the Attorney General's Annual Report to Congress on the U.S. 
Government Efforts to Combat Trafficking in Persons.
    In conclusion, the Center brings together federal agency 
representatives from the policy, law enforcement, intelligence and 
diplomatic arenas to work together to achieve increased progress in 
addressing the problems of human smuggling, human trafficking and 
clandestine terrorist mobility. The Department is committed to 
supporting the Center. Its success enhances the Department's 
capabilities to address these criminal threats and exploitable 
vulnerabilities.
    The men and women of DHS are grateful for the chance to serve the 
American people and on their behalf, I thank you and your colleagues 
for your continued support of the Department and the Human Smuggling 
and Trafficking Center.
    I would be pleased to answer your questions.

    Mr. Rogers. Thank you, Mr. Clark.
    The Chair now recognizes Mr. Chris Swecker, Acting 
Executive Director of Law Enforcement Services at the U.S. 
Department of Justice, for any statement he may have.

STATEMENT OF CHRIS SWECKER, ACTING EXECUTIVE ASSISTANT DIRECTOR 
    OF LAW ENFORCEMENT SERVICES, U.S. DEPARTMENT OF JUSTICE

    Mr. Swecker. Good afternoon, Chairman Rogers, Ranking 
Member Meek, and members of the committee. We appreciate the 
opportunity to come here to talk to you today about the Human 
Smuggling and Trafficking Center. This Center now serves as the 
Federal Government's information clearinghouse and intelligence 
fusion center for all Federal agencies addressing human 
smuggling, human trafficking and potential use of human 
smuggling routes, networks and organizations by known or 
suspected terrorists.
    The Department of Justice is represented on the Center's 
Steering Committee through the participation of the Assistant 
Attorney Generals of the Civil Rights and Criminal Divisions 
and the FBI Assistant Director of the Criminal Investigative 
Division. The Department of Homeland Security and the 
Department of State also have representatives on the Steering 
Committee.
    The Steering Committee meets regularly to help provide the 
growth and direction of the new venture. Each of the AAGs and 
the AD have designated high level staff to work closely with 
the Center Director to provide more day-to-day guidance on the 
number of issues that arise given that the HSTC is still in 
development.
    The Steering Committee is considering the appropriate 
staffing levels needed in order to carry out the Center's 
mission. The Steering Committee created a working group for 
that purpose, and that working group has been meeting and is 
expected to make recommendations to the Steering Committee 
about staffing issues.
    The HSTC develops intelligence into action by law 
enforcement agencies, serves as the focal point for interagency 
efforts to address clandestine terrorist travel, serves as the 
clearinghouse for deconfliction of member agencies' efforts 
regarding human smuggling, human trafficking and clandestine 
terrorist travel, supports the efforts of the National 
Counterterrorism Center, and prepares an annual strategic 
assessment regarding vulnerabilities in the United States and 
international travel systems.
    The HSTC is staffed by administrators, investigators and 
analysts from the Departments of State, Homeland Security and 
Justice and Intelligence Community representatives. The FBI's 
Criminal Investigative Division has a supervisory special agent 
and an intelligence analyst assigned to the HSTC. Both work 
closely with their counterparts in the FBI's Counterterrorism 
Division to ensure the free flow of intelligence and 
investigative information regarding any possible connections to 
terrorism.
    Our analyst at the Center has direct contact with their 
counterpart in the Counterterrorism Division. There are 
analysts in the FBI that stand behind the ones detailed tO the 
Center. Thus, the analysts detailed to the Center contribute to 
the combined product of all of the analysts back at 
headquarters.
    FBI databases are in the Center, and the information in the 
databases is available to other participants through the FBI 
detailees. The FBI and HSTC recently identified a criminal 
enterprise that was smuggling special interest aliens into the 
United States, and the FBI subsequently determined this 
criminal enterprise had a potential nexus to terrorist groups. 
This intelligence was provided to and is being investigated by 
the FBI's Counterterrorism Division in conjunction with the 
appropriate FBI Legal Attache Offices.
    FBI personnel at the HSTC also work with and share 
intelligence with the Mexico City Intelligence Fusion Center, 
as well as the FBI Mexico City Legal Attache Office regarding 
human smuggling and trafficking and any potential connections 
to terrorist travel or terrorist organizations.
    FBI representatives at the HSTC are in the process of 
establishing intelligence sharing protocols on human smuggling 
and trafficking matters with all of the Latin American FBI 
Legal Attache Offices and plan to do the same for the FBI 
Legats in Africa and Asia.
    The HSTC is currently coordinating the pursuit of another 
human smuggling and trafficking matter with the Department of 
State, FBI, ICE and international law enforcement counterparts 
in Asia and Europe regarding smugglers from the United States 
as part of a human trafficking ring operating in Europe.
    The HSTC is coordinating the investigation of this 
trafficking ring with the appropriate FBI Legat office in 
Europe and Asia, and field offices. In addition to its 
participation in the HSTC, the FBI is also using its 
participation in the Southeastern European Cooperative 
Initiative, SECI, to address its responsibilities for 
investigating international criminal enterprises engaged in a 
variety of criminal activity, including human smuggling and 
trafficking.
    The SECI operates in much the same way as the HSTC does to 
facilitate the exchange of information and coordinate 
international law enforcement efforts among 12 member and 14 
observer countries, primarily focused on transborder crime in 
the Balkan region. The 12 member countries are listed in my 
statement. I won't go through all of them, but they are all in 
Eastern Europe and the Balkan area.
    SECI also supports the following specialized task forces 
for countering transborder crime, including human trafficking 
and people smuggling, drug trafficking, trafficking stolen 
vehicles, financial crimes, smuggling of goods and customs 
frauds, terrorism and other serious transborder crimes.
    Currently we have three agents on assignment in SECI in 
Bucharest, Romania; Sofia, Bulgaria; and Tirana, Albania.
    The FBI uses the Enterprise Theory of Investigation as one 
of our main strategies to investigate criminal enterprises that 
are involved in human smuggling and human trafficking, as well 
as other organized criminal organizations.
    The Enterprise Theory of Investigation is an intelligence 
driven investigative technique which seeks to identify the full 
scope of a criminal organization. It is a two-step process 
which involves identifying the organization and the activities 
surrounding the organization while simultaneously identifying 
the financial assets of the criminal investigation for possible 
forfeiture. Sophisticated techniques are used as well as the 
RICO statutes and the complex conspiracy statutes.
    The FBI has received some intelligence reports from the 
Center that some members of MS-13 have been involved in human 
smuggling by facilitating the transportation of illegal 
immigrants from Latin American countries through Mexico to the 
U.S., but not on a large scale. Some MS-13 gang members have 
been smuggled into the U.S. utilizing the services of 
established human trafficking networks. This information was 
derived from interviews of MS-13 gang members at the time of 
their arrest in the United States.
    The FBI will continue to support the efforts of the Center 
and its effectiveness in combating human smuggling and human 
trafficking. I look forward to answering your questions.
    [The statement of Mr. Swecker follows:]

                  Prepared Statement of Chris Swecker

    Good morning Chairman Rogers, Ranking Member Meek, and Members of 
the Committee. I want to thank you for this opportunity to testify 
before you today about the FBI's role in the Human Smuggling and 
Trafficking Center. The Acting Director of the Center is submitting 
testimony that outlines in detail the structure, staffing and mission 
of the Center.
    Pursuant to Section 7202 of the Intelligence Reform and Terrorism 
Prevention Act of 2004 (IRTPA), the Departments of State, Homeland 
Security, and Justice signed a charter in July 2004 to establish the 
Human Smuggling and Trafficking Center (HSTC). This Center now serves 
as the federal government's information clearinghouse and intelligence 
fusion center for all federal agencies addressing human smuggling, 
human trafficking, and the potential use of human smuggling routes, 
networks and organizations by known or suspected terrorists. The 
Department of Justice is represented on the Center's Steering Committee 
through the participation of the Assistant Attorney Generals of Civil 
Rights and Criminal Divisions and the FBI Assistant Director of the 
Criminal Investigative Division. The Department of Homeland Security 
and the Department of State also have representatives on the Steering 
Committee. The Steering Committee meets regularly to help guide the 
growth and direction of this new venture. Each of the AAGs and the AD 
have designated high-level staff to work closely with the Center 
Director to provide more day-to-day guidance on the number of issues 
that arise given that the HSTC is still in development. The Steering 
Committee is considering the appropriate staffing levels needed in 
order to carry out the Center's mission. The Steering Committee created 
a working group for that purpose. The working group has been meeting 
and is expected to make recommendations to the Steering Committee about 
staffing issues.
    The HSTC develops intelligence into action by law enforcement 
agencies; serves as the focal point for interagency efforts to address 
clandestine terrorist travel; serves as the clearinghouse for 
deconfliction of member agencies efforts regarding human smuggling, 
human trafficking and clandestine terrorist travel; supports the 
efforts of the National Counterterrorist Center (NCTC), and prepares an 
annual strategic assessment regarding vulnerabilities in the United 
States and international travel systems.
    The HSTC is staffed by administrators, investigators, and analysts 
from the Department of State, the Department of Homeland Security, the 
Department of Justice, and intelligence community representatives.
    The FBI's Criminal Investigative Division has a Supervisory Special 
Agent and an Intelligence Analyst assigned to the HSTC. Both work 
closely with their counterparts in the FBI's Counterterrorism Division 
to ensure the free flow of intelligence and investigative information 
regarding any possible connections to terrorism. Our analyst at the 
Center has direct contact with their counterpart in the 
Counterterrorism Division. There are analysts in the FBI that "stand 
behind" the ones detailed to the Center. Thus, the analysts detailed to 
the Center contribute the combined product of all the analysts back at 
headquarters. FBI databases are in the Center and the information in 
the databases is available to other participants through the FBI 
detailees.
    The FBI and the HSTC recently identified a criminal enterprise that 
was smuggling Special Interest Aliens (SIAs) into the United States, 
and the FBI subsequently determined this criminal enterprise had a 
potential nexus to terrorist groups. This intelligence was provided to 
and is being investigated by the FBI's Counterterrorism Division in 
conjunction with the appropriate FBI Legal Attaches.
    FBI personnel at the HSTC also work with and share intelligence 
with the Mexico City Intelligence Fusion Center (MCIFC), as well as the 
FBI Mexico City Legal Attache office, regarding human smuggling and 
trafficking, and any potential connections to terrorist travel or 
terrorist organizations. FBI representatives at the HSTC are in the 
process of establishing intelligence sharing protocols on human 
smuggling and trafficking matters with all of the Latin American FBI 
Legal Attache offices, and plan to do the same for the FBI Legal 
Attaches in Africa and Asia.
    The HSTC is currently coordinating the pursuit of another human 
smuggling and trafficking matter with the Department of State, FBI, 
Immigration and Custom Enforcement, and international law enforcement 
counterparts in Asia and Europe regarding smugglers from the United 
States that are part of a human trafficking ring operating in Europe. 
The HSTC is coordinating the investigation of this trafficking ring 
with the appropriate FBI Legal Attache offices in Europe and Asia.
    In addition to its participation in the HSTC, the FBI is also using 
its participation in the Southeast European Cooperative Initiative 
(SECI) to address its responsibilities for investigating international 
criminal enterprises engaged in a variety of criminal activity, 
including human smuggling and trafficking. The SECI operates in much 
the same way as the HSTC does to facilitate the exchange of information 
and to coordinate international law enforcement efforts among 12 member 
and 14 observer countries, primarily focused on transborder crime in 
the Balkan Region. The 12 member countries included in SECI are 
Albania, Bosnia and Herzegovina, Bulgaria, Croatia, Greece, Hungary, 
Macedonia, Moldova, Romania, Slovenia, Serbia/Montenegro, and Turkey. 
The observer countries are from Austria, Azerbaijan, Belgium, Canada, 
France, Georgia, Germany, Italy, the Netherlands, Portugal, Spain, 
Ukraine, the United Kingdom, and the United States.

    The SECI also supports the following specialized task forces for 
countering transborder crime:
        1. Human trafficking and people smuggling
        2. Drug trafficking
        3. Trafficking in stolen vehicles
        4. Financial crimes
        5. Smuggling of goods and customs frauds
        6. Terrorism
        7. Other serious transborder crimes
    The FBI currently has three agents on TDY assignments for SECI in 
Bucharest, Romania; Sofia, Bulgaria; and Tirana, Albania.
    The FBI utilizes the Enterprise Theory of Investigation (ETI) as 
one of our main strategies to investigate criminal enterprises that are 
involved in human smuggling and human trafficking, as well other 
organized criminal organizations.
    ETI is an intelligence driven investigative technique which seeks 
to identify the full scope of a criminal organization.
    ETI is a two step process, which involves identifying the 
organization and the criminal activities surrounding the organization, 
while simultaneously identifying the financial assets of the criminal 
organization for possible forfeiture.
    ETI can involve covert techniques, which include informants, 
physical surveillance, electronic surveillance (wiretaps), undercover 
operations, and the use of pen registers. ETI can also utilize overt 
techniques, such as Federal Grand Jury subpoenas, witness interviews, 
and the review of media reporting.
    The ETI approach is used with the Racketeer Influenced and Corrupt 
Organizations statute, which is better known as the RICO statute. ETI 
furthers RICO prosecutions by identifying predicate crimes, identifying 
the existence of a criminal enterprise, and by identifying the 
individuals in control of the enterprise.
    The FBI has received intelligence reports from the Center that some 
members of MS-13 have been involved in human smuggling by facilitating 
the transportation of illegal migrants from Latin American countries, 
through Mexico to the United States, but not on a large scale.
    Also, some MS-13 gang members have been smuggled into the United 
States utilizing the services of established human smuggling networks. 
This information was derived from interviews of MS-13 gang members at 
the time of their arrests in the United States.
    The FBI supports the efforts of the Center and its effectiveness in 
combating human smuggling and human trafficking. The FBI's 
counterterrorism, international organized crime, and domestic 
trafficking and involuntary servitude/slavery efforts have been and 
will continue to be enhanced by the valuable contributions of the 
Center. Thank you again for the opportunity to appear today. I would be 
happy to answer any of your questions.

    Ms. Harris. [Presiding.] Thank you, Mr. Swecker, for your 
testimony.
    The Chair now recognizes Mr. Marc Gorelick, Acting Director 
for Human Smuggling and Trafficking Center at the United States 
Department of State, to testify. Welcome.

 STATEMENT OF MARC GORELICK, ACTING DIRECTOR, HUMAN SMUGGLING 
        AND TRAFFICKING CENTER, U.S. DEPARTMENT OF STATE

    Mr. Gorelick. Thank you. Good afternoon, Mr. Chairman, and 
distinguished members of the committee.
    Before I begin I would like to extend my sincere gratitude 
to you and the members of your subcommittee for this 
opportunity to share with you the status of the interagency 
Human Smuggling and Trafficking Center, and the strides we have 
taken to build the Center ensure that it plays a significant 
role in protecting the United States. Your interest in our work 
is greatly appreciated.
    As Acting Director, I wish to make it clear that I am 
speaking on behalf of the Center and not any of the 
participating agencies.
    Human smuggling and trafficking into the United States 
constitutes significant risks to national security and public 
safety.
    Global pipelines present an unacceptable vulnerability to 
our Nation's security. These pipelines are used by smuggling 
and trafficking organizations for moving undocumented aliens 
and may be exploited by terrorists and extremist organizations 
to gain clandestine entry into the United States.
    The interagency Center is designed to turn all source 
intelligence into law enforcement or other action in three main 
mission areas: Human smuggling, human trafficking--especially 
the criminal facilitation and movement of the victims--and the 
third is the criminal smuggler and document provider support of 
clandestine terrorist travel.
    Basically, the HSTC helps fight the global illicit travel 
industry. It is an intelligence fusion center and information 
clearinghouse that was established to break down the 
information stovepipes to ensure that the people and agencies 
that need intelligence get it on a timely basis. It is a 
valuable new tool that collates, vets and analyzes information 
from a range of sources and disseminates actionable operational 
leads to Federal law enforcement, foreign policy, and 
intelligence agencies and informs policy makers of threats to 
help them make informed decisions.
    When the HSTC is fully staffed, resourced and supported by 
participating agencies, it will be better able to draw upon and 
leverage their resources, strengths, authorities, and expertise 
in order to achieve greater integration and overall 
effectiveness in the U.S. Government's enforcement and other 
response efforts and also to work with other governments.
    It is now beginning to fulfill this potential by providing 
a mechanism to bring together Federal agency representatives 
from the policy, law enforcement, intelligence and diplomatic 
areas to work together on a full-time basis to achieve 
increased effectiveness and convert intelligence into effective 
action. We also serve a deconfliction role.
    Under the terms of the HSTC charter, the Center is a 
voluntary initiative. Agencies choose to participate because 
they see the benefits in doing so. These agencies are the 
Department of State, Department of Justice, Department of 
Homeland Security, and members of the Intelligence Community.
    The Center's efforts are fundamentally supportive as it is 
intended to fuse information obtained from multiple sources and 
provide participating agencies with tailored intelligence that 
can enhance law enforcement and other action. It does not 
direct any activities or develop policy.
    While under construction, the Center has become a center of 
excellence. U.S. Government agencies are turning to it because 
of its unique expertise and knowledge in the related realms of 
terrorist travel, human smuggling and human trafficking. While 
we are proud of this recognition, we realize that it can be a 
two-edged sword as the Center can become subject to rising 
expectations beyond its capabilities.
    When the charter was negotiated and signed, the Center was 
originally envisioned as a small operation with a limited 
mission and responsibilities. Section 7202 of the Intelligence 
Reform and Terrorism Prevention Act of 2004 added significant 
new functions and responsibilities to the Center for which the 
Center was not originally created or organized to handle.
    The HSTC is still very much a work in progress and in the 
short time since the charter was signed and the IRTPA 
established the Center in law, the Center staff has made 
substantial progress in building the organization 
infrastructure and fulfilling its responsibilities. These 
results were achieved with the minimum of fiscal information 
technology and human resources. However, it still has a way to 
go before it can fulfill all that is required by law or 
expected of it by its agencies.
    Currently, the Center staff is made up of only 11 full-time 
and 5 part-time people, all of whom are detailed or assigned to 
the Center by their parent agencies. We also have one contract 
support person.
    Mr. Chairman, the Center and the people assigned to it are 
dedicated to its mission and safeguarding America. We look 
forward to working with the subcommittee in our efforts to 
secure our national interests. I also thank you for this 
opportunity to appear before the subcommittee, and I will be 
happy to answer any questions you and the other members may 
have.
    [The statement of Mr. Gorelick follows:]

                  Prepared Statement of Marc Gorelick

    Good afternoon Mr. Chairman and distinguished members of the 
subcommittee. Before I begin I would like to extend my sincere 
gratitude to you and the members of your subcommittee for this 
opportunity to share with you the status of the interagency Human 
Smuggling and Trafficking Center, and the strides we have taken to 
build the Center and ensure that it plays a significant role in United 
States efforts against the criminal support of clandestine terrorist 
travel, alien smuggling and trafficking in persons. Your interest in 
our work is greatly appreciated. As Acting Director I wish to make it 
clear that I am speaking on behalf of the interagency Center and not 
any of the participating agencies.
    Human smuggling and trafficking into the United States constitute 
significant risks to national security and public safety. Global 
pipelines present an unacceptable vulnerability to our nation's 
security. These pipelines can be used by smuggling and trafficking 
organizations for the clandestine entry of undocumented aliens and may 
be exploited by terrorist and extremist organizations to gain entry 
into the United States.
    The interagency Center is designed to turn all-source intelligence 
into law enforcement or other action in three main mission areas:
        <bullet> Human smuggling;
        <bullet> Human trafficking (criminal movement aspect); and
        <bullet> Criminal smuggler and document provider support of 
        clandestine terrorist travel.
    Basically the HSTC helps fight the illicit travel business.
    It is an intelligence fusion center and information clearinghouse 
that was established to break down the information stovepipes to ensure 
that the people and agencies that need intelligence get it on a timely 
basis. It is a valuable new tool that is designed to collate, vet and 
analyze intelligence and related information from a vast range of 
sources and disseminate actionable operational leads to federal law 
enforcement, foreign policy and intelligence agencies. It is also 
designed to inform policy makers of threats in order to help them make 
informed decisions.
    When the HSTC is fully staffed, resourced and supported by 
participating agencies, it will be better able to draw upon, and 
leverage their resources, strengths, authorities and expertise in order 
to achieve greater integration and overall effectiveness in the U.S. 
Government's enforcement and other response efforts, and work with 
other governments. It is now beginning to fulfill this potential by 
providing a mechanism to bring together federal agency representatives 
from the policy, law enforcement, intelligence, and diplomatic areas to 
work together on a full time basis to achieve increased effectiveness, 
and to convert intelligence into effective law enforcement, diplomatic, 
and other action.
    Under the terms of the HSTC Charter, the Center is a voluntary 
initiative. Agencies choose to participate because they see benefits. 
These agencies are: Department of State--(International Narcotics and 
Law Enforcement Affairs, Consular Affairs, Diplomatic Security); 
Department of Justice--(Criminal Division, Civil Rights Division, 
Federal Bureau of Investigation); Department of Homeland Security--
(Immigration and Customs Enforcement, United States Coast Guard, Office 
of Intelligence Analysis) and members of the Intelligence Community.
    The Center's efforts are fundamentally supportive in nature as the 
HSTC is intended to fuse information obtained from multiple sources and 
provide participating agencies with tailored intelligence that can 
enhance law enforcement and other action. It does not direct any 
activities or develop policy.
    Even while under construction, the Center has become a ``center of 
excellence'' that US government agencies turn to more and more because 
of its unique expertise and knowledge in the realms of smuggler support 
of terrorist travel, human smuggling and human trafficking. While we 
are proud of this recognition, we realize that it can be a two edged 
sword, as the Center can become subject to rising expectations beyond 
its capabilities.
    The HSTC is still very much a work in progress. In the year and 
half since the Departments of State, Justice and Homeland Security 
signed the Center Charter, and the little over a year since the 
Intelligence Reform and Terrorism Prevention Act (IRTPA) established 
the Center in law, we have made substantial progress in building a 
useful organization and fulfilling its responsibilities. However, it 
still has a way to go before it can fulfill all that is required by the 
IRTPA or expected of it by agencies or other interagency centers such 
as the National Counterterrorism Center, with which the HSTC 
cooperates.
    Under the Charter, the HSTC was originally envisioned as a small 
operation with a limited mission and responsibilities; with the 
following functions:
        <bullet> Facilitate the broad dissemination of all-source 
        information;
        <bullet> Prepare strategic assessments that provide accurate 
        and timely information about: organizations' organization, 
        infrastructure and methods of operation; smuggling routes, 
        countries and geographic regions; and criminal methodologies;
        <bullet> Identify issues for interagency attention or 
        coordination;
        <bullet> If requested, coordinate select initiatives and 
        provide support; and
        <bullet> Serve as a point of contact for cooperation with 
        foreign authorities.
    Section 7202 of the IRTPA of 2004 added significant new functions 
and responsibilities to the Center, which the Center was not originally 
created or organized to handle:
        <bullet> Serve as the focal point for interagency efforts to 
        address terrorist travel;
        <bullet> Serve as a clearinghouse with respect to all relevant 
        information from all Federal Government agencies in support of 
        the United States strategy to address the issues of clandestine 
        terrorist travel, migrant smuggling and trafficking of persons;
        <bullet> Ensure cooperation among all relevant policy, law 
        enforcement, diplomatic, and intelligence agencies of the 
        Federal Government to improve effectiveness and to convert all 
        information available to the Government relating to the three 
        mission areas into tactical, operational, and strategic 
        intelligence that can be used to combat such illegal 
        activities;
        <bullet> Prepare and submit to Congress, on an annual basis, a 
        strategic assessment regarding vulnerabilities in the United 
        States and foreign travel systems that may be exploited by 
        international terrorists, human smugglers and traffickers, and 
        their facilitators;
        <bullet> Support the efforts of the National Counter Terrorism 
        Center.
    The Center staff has labored diligently over the last year. Their 
efforts have produced significant results in the areas of building the 
Center's infrastructure, fulfilling some of the requirements assigned 
to it by the IRTPA, and fostering greater U.S. and international 
cooperation to combat terrorist mobility, human smuggling and human 
trafficking. These results were achieved with a minimum of fiscal, 
information technology (IT), and human resources. Currently the Center 
staff is made up of 11 full-time and five part-time people, all of whom 
are detailed or assigned to the Center by their parent agencies. We 
also have one contract support person. The following outlines some of 
the accomplishments that have resulted from their efforts:
    On June 20, 2005, the HSTC fulfilled IRTPA Section 7202(d), which 
required the President to transmit a report to the Congress outlining 
progress that has been made in standing up the HSTC and to identify its 
staffing and resource needs.
    The Departments of State, Justice and Homeland Security signed a 
cost reimbursement agreement to cover the HSTC's non-personnel related 
operating costs for fiscal years 2005 and 2006. This will significantly 
increase the Center's ability to fulfill its many missions.
    The HSTC is located in a secure location that is supported by the 
State Department. Although it uses a State Department IT backbone, as a 
fusion center, classified connectivity and information management are 
critical. We are establishing IT connectivity to many participating 
agencies, including the Intelligence Community. We are also working 
closely with our partners and have an especially close relationship 
with the National Counter Terrorism Center.
    The Center has disseminated almost 2000 cables and reports since 
May 2005. Center staff created an Intelligence Dissemination Tracking 
System and Database in December 2005, which also includes any feedback 
we receive from the recipients.
    The Department of Homeland Security established a searchable HSTC 
database and webpage on the DHS Intelligence Fusion Web-page and 
uploaded thousands of records. The HSTC updates the database daily.
    The Coast Guard established and upgraded a classified website for 
the Center on its SIPRNET Website where the Center's products are 
posted.
    The State Department established a public information Internet 
website to give general information about the HSTC (http://
www.state.gov/g/inl/c14079.htm)
    All personnel assigned to the Center have available, on their 
desktops, the State Department's unclassified and classified (up to 
Secret) systems and the DHS unclassified network, providing the HSTC 
access to numerous DHS databases. The State systems provide access to 
the State Intranet, e-mail, cable traffic and the Consolidated Consular 
Database, a powerful tool that contains millions of visa records.
    We have completed installation and activation of DOJnet, which 
provides more efficient and secure communications between DOJ personnel 
assigned to the HSTC, and the Justice Data Network. We have also 
completed installation and activation of FBInet terminals, providing 
the HSTC access to critical FBI data.
    The Center installed secure video conferencing capability for real-
time conferencing with overseas posts as well as domestic locations.
    The HSTC and the State Department's Bureau of Consular Affairs are 
negotiating an agreement to give the Center access to the U.S. Passport 
database. We are also negotiating with DHS U.S. Citizenship and 
Immigration Services for appropriate HSTC access to USCIS records.
    Secure desktop connectivity with the Intelligence Community has 
been approved by the Director of National Intelligence's (DNI) 
Interagency Policy Board (IAPB). We hope to have this, and other secure 
connectivity, installed in the next few months.
    The Center created an electronic and hard copy library of images of 
genuine and fraudulent U.S. and foreign travel documents, and U.S. and 
foreign fraudulent document alerts. This is a limited internal database 
that is meant to be a research tool for analysts in the HSTC. It is not 
meant to be all inclusive nor is it meant to duplicate the library at 
the DHS/ICE Forensic Document Laboratory.
    The Center's staff is also producing a body of useful intelligence 
assessments and reports at the same time they were building its 
infrastructure and establishing its procedures. These products were 
initiated by statutory requirements, requests from participating 
agencies, and self generation, where the Center staff saw a 
vulnerability or need to inform. Some of the more notable products 
include:
    IRTPA Sec. 7202(c)(4) requires the HSTC to prepare and transmit to 
Congress a strategic assessment regarding vulnerabilities in the US and 
international travel systems that can be exploited by terrorists, 
smugglers, traffickers and their facilitators. The HSTC and the 
National Counterterrorism Center (NCTC) jointly drafted a comprehensive 
vulnerabilities assessment and released it as a finished intelligence 
product on September 14, 2005. The report was delivered to Congress on 
December 16, 2005. We will be gearing up for the next report.
    The Center is heavily involved in the production of the National 
Strategy to Combat Terrorist Travel, which the NCTC produced. Most of 
the Center staff were involved in drafting the strategy and one staff 
member was a lead drafter of this product.
    The Coast Guard and the HSTC jointly issued intelligence products 
that identified certain asylum applicants in the United States, and a 
foreign national immigrant visa applicant with suspected extremist 
ties. These products resulted in two Joint Terrorism Task Force 
investigations and an individual being excluded from the US and having 
his visa revoked.
    The Center has also produced several joint intelligence assessments 
with partner agencies regarding human smuggling from the East Asia/
Pacific region, global smuggling routes and trends, human smuggling 
from China; smuggling and trafficking from the East Asia/Pacific 
region. The Center published, with the Coast Guard, a major threat 
assessment of smuggling from a South American country. The HSTC worked 
with the FBI to produce joint intelligence products looking at human 
smuggling front companies, human smuggling via Native American 
reservations, and human smuggling utilizing public conveyances. And we 
worked with the FBI and DHS Office of Intelligence Analysis to produce 
an assessment of smugglers believed to present special security risks.
    The Center has also produced numerous other products on its own 
initiative. These include a comprehensive intelligence assessment 
looking at human smuggling via a Caribbean country; an intelligence 
report identifying suspected fraudulent shipping companies in India 
that has proven particularly useful to Consular Affairs; an 
intelligence report on how the high number of lost/stolen US passports 
in two Middle East countries could facilitate illegal travel; and a 
report about a corrupt foreign consul who was selling passports and 
visas.
    The HSTC is assigned the U.S. lead on a joint U.S./Canada cross-
border trafficking in persons threat assessment that is being produced 
under auspices of the US/Canada Cross Border Crime Forum.
    The Center also produced a fact sheet outlining the distinctions 
between human smuggling and human trafficking. This product is being 
widely used for training throughout the U.S. government, and has been 
used by the Royal Canadian Mounted Police and New York State law 
enforcement in their training programs. We also produced, for the State 
Department Office to Monitor and Combat Trafficking in Persons, two 
regional ``snapshots'' of trafficking inside the United States. The 
HSTC provided analytical support to an Assistant United States Attorney 
investigating an overseas sex tourism case, resulting in a guilty plea 
by the defendant.
    As part of its foreign affairs function the Center, in coordination 
with the State Department, is cultivating relationships with several 
foreign immigration services and regularly exchanges information with 
them. This information is being disseminated to appropriate U.S. 
agencies. The Center is the U.S. representative to the Pacific Rim 
Immigration Intelligence Conference. The Center also supports various 
U.S. foreign affairs initiatives, for instance support to the US 
delegation to the Conference of the Parties to the UN Convention on 
Transnational Organized Crime and its Protocols. We drafted a report on 
fraudulent document production in Bangkok that serves as the basis for 
the G-8's action plan to address that issue.
    The HSTC Director sits on the National Security Council Policy 
Coordination Committee on International Organized Crime (PCC). An HSTC 
staff member drafted a section of the threat assessment that will be 
used as a basis for updating the U.S. Government's strategy for 
addressing international organized crime.
    Section 104 of the Trafficking Victims Protection Reauthorization 
Act of 2005 requires the Center to submit a report to Congress on links 
between trafficking in persons and terrorism--specifically links 
between the profits from trafficking and terrorist financing.
    Mr. Chairman, the Center and the people assigned to it are 
dedicated to its missions. We look forward to working with this 
subcommittee in our efforts to secure our national interests. I also 
thank you for this opportunity to appear before this subcommittee and I 
will be happy to answer any questions you and the other members may 
have.

    Ms. Harris. Thank you, Mr. Gorelick, for your testimony. At 
this time I have several questions I would like to ask. As 
noted in my opening statement, I requested Chairman Rogers to 
convene this hearing to address my concerns about national 
security threats posed by terrorist travel, human smuggling and 
sex trafficking and whether the Federal Government is 
effectively tackling this growth problem.
    Today I have even more concerns because of the numerous 
obstacles we received in trying to arrange this hearing in the 
first place, and I am frustrated as well as disappointed that 
several witnesses to whom we repeatedly extended invitations 
have failed to avail themselves to this committee. Principally 
Randy Beerswith, the Assistant Secretary for Strategic Planning 
for DHS, and chairs DHS D.C. Steering Committee, which of 
course is responsible for providing policy guidance and 
oversight of the Center, was not available. State was not 
available nor sent anyone, and so I want to once again thank 
the witnesses who have chosen to be here today.
    And I would appreciate if you could keep your answers to 
these initial questions, just a yes or no, just kind of just to 
get an overview.
    The first question is do you believe that there are 
adequate staffing levels at the HSTC? Mr. Clark, Mr. Swecker 
and Mr. Gorelick.
    Mr. Clark. This is a yes or no?
    Ms. Harris. We will start out. I will come back to you to 
give you a little more information.
    Mr. Clark. Then no.
    Ms. Harris. Mr. Swecker.
    Mr. Swecker. At this point in time, yes.
    Mr. Gorelick. No.
    Ms. Harris. With regard to funding, do you think there is 
adequate funding and would a dedicated item, line item of 
funding, from the Federal Government help the Center? Mr. 
Gorelick?
    Mr. Gorelick. If I could, the Steering Group established 
the Working Group to look into that and make recommendations to 
the Steering Group, which the Steering Group will follow up on.
    Ms. Harris. Presently, do you think the funding levels are 
adequate?
    Mr. Gorelick. No.
    Ms. Harris. Mr. Swecker.
    Mr. Swecker. They always tell us to stay away from budget 
questions, but the funding comes from each individual agency. 
So I would say no. It needs to be funded separately.
    Ms. Harris. Mr. Clark.
    Mr. Clark. I would second what Mr. SWecker said.
    Ms. Harris. Do you think that the Center should have an 
operational capability? I mean you have all of these 
organizational issues but then how--and they are not always 
implemented. Is there a problem in the operations?
    While I understand this is an interagency fusion center of 
information, do you feel that there should be an operational 
capability to follow up on the leads in intelligence that are 
developed by the Center? Mr.Swecker?
    Mr. Swecker. No.
    Ms. Harris. Mr. Clark?
    Mr. Clark. No.
    Ms. Harris. Mr. Gorelick?
    Mr. Gorelick. No.
    Ms. Harris. And finally on these yes or no questions, in 
your review is the mission of the Center clearly defined? Mr. 
Clark?
    Mr. Clark. Yes.
    Mr. Swecker. Yes.
    Mr. Gorelick. Yes.
    Ms. Harris. I have a couple more minutes.
    Mr. Swecker, I know that there are 650 intelligence 
analysts that were hired in 2004. There is supposed to be up to 
over a thousand by the end of 2005. Would any of those analysts 
be assigned to the Center to your knowledge?
    Mr. Swecker. One is assigned out there full time right now 
along with an agent. There is a counterterrorism analyst that 
supports the Center but sits out at NCTC.
    Ms. Harris. Do you anticipate any more of those additional 
400 analysts, will any more be assigned to the Center?
    Mr. Swecker. It is possible. We are trying to get a 
counterterrorism analyst out there full time.
    Ms. Harris. Do you think it requires more?
    Mr. Swecker. A counterterrorism analyst should be out there 
full time, yes.
    Ms. Harris. Thank you. And Mr. Clark, there was a joint 
vision between Secretary Rice and Secretary of Homeland 
Security Chertoff that said that the Human Smuggling and 
Trafficking Center as part of their smarter screening goal 
would be to develop and use travel intelligence before 
travelers arrive. What is your time frame in accomplishing 
this, and what steps are you taking and what will you do to 
achieve this goal?
    Mr. Clark. I am not familiar with the particulars. I know 
the Customs and Border Protection is working especially with 
foreign governments to work on that screening process and part 
of their moving the borders out. Unfortunately, I don't have a 
timetable for when they feel that would be most effectively 
implemented.
    Ms. Harris. Okay, and finally, Mr. Gorelick, thank you for 
your service as Acting Director of this very important center. 
I would ask you, what changes would you recommend in how the 
three Cabinet departments support the Center?
    Mr. Gorelick. As I stated before, the Working Group that 
the Steering Group formed is going to be making recommendations 
to the Steering Group.
    Ms. Harris. Thank you. My time is completed.
    Thank you for your answers. I am going to call on the 
members as they have arrived accordingly, and the order of 
questions that will be, Congressman Meek, Pascrell--Reichert 
and Pascrell and, sorry, and Ms. Jackson-Lee.
    Mr. Meek. Thank you, Ms. Harris. I would like, this 
question is to either one of you on the panel.
    How does HSTC plan to produce any reports examining 
operational challenges at the Center? How do you produce your 
plans? Because I hear your response to Ms. Harris, but also I 
had an opportunity to see your statement today. And none of you 
really put forth any real statement to we can do more if we had 
this level of cooperation, or we could do more if we had a line 
item budget, because from what I understand now you all kind of 
come together and share budgets.
    How do you measure your success versus what you can do if 
there was more organization and structure in an operation that, 
number one, the watchword should be organization?
    Mr. Gorelick. The Center--management at the Center has 
created a work plan, a multi-year work plan in which we have 
taken requests from various agencies for joint projects as well 
as requests for projects that the Center should do, self-
generated projects and of course statutory required reports. We 
have laid those out and looked at our resources, we have drawn 
a line on what we can do and prioritized those projects. The 
priorities first are based on threats to national security, and 
second based on threats to public safety.
    National security threats of course are the terrorist 
travel threats, and public safety are human smuggling and human 
trafficking. That is how we basically prioritize our work and 
develop our work plan.
    Mr. Meek. Thank you very much. I am going to limit my 
questions because we are about--they just called a vote so, 
Madam Chair, I am going to relinquish the rest of my time so 
hopefully other members will be able to ask questions.
    Ms. Harris. Mr. Reichert.
    Mr. Reichert. Thank you, Madam Chair.
    In March of this year, an article appeared in the Seattle 
Times. It was reported that the UAE has had some involvement in 
trafficking young boys for camel races.
    Have you been involved in that investigation? What is your 
responsibility and role? Do you know anything about that?
    Mr Clark. I am not familiar. I have read the story. I don't 
know that there was an ICE investigation per se over there in 
any capacity on that.
    Mr. Swecker. No FBI investigation I am aware of.
    Mr. Gorelick. I believe that that was also mentioned in 
previous TIP reports, annual TIP reports. But I also believe 
that the UAE has curtailed that practice or tried. I would have 
to defer to G-TIP to answer more fully.
    Mr. Reichert. This is not a new issue that has come up. It 
has been an issue that they have been dealing with for a while. 
But no one here at the table has been involved in that 
investigation, knows anything about it?
    Mr. Gorelick. No.
    Mr. Reichert. Can you explain your program called Lost 
Innocence?
    Mr. Swecker. That is an FBI initiative that was designed to 
consolidate task forces around the country or establish task 
forces around the country to address underage female forced 
prostitution. I think it exists in over, almost two dozen 
offices around the country. It consists of sort of a multi-
disciplinary team of State and local law enforcement officers, 
FBI agents and components from the social services, various 
social service agencies in the country designed to get at sex 
prostitution rings, especially, or targeting specifically 
underage girls. It has been a--we did a takedown about 2 or 3 
months ago, national takedown, and I think there were over 100 
arrests. It has been a very successful initiative which we hope 
to enhance and build on.
    Mr. Reichert. It is an initiative that works with local law 
enforcement then?
    Mr. Swecker. Yes, sir. State and local law enforcement 
generally come across this type of crime first through their 
vice squads and through their street operations, and part of 
the issue is to educate the officers that these girls are 
victims, not necessarily criminals.
    Mr. Reichert. Thank you. I will yield the balance of my 
time.
    Ms. Harris. Thank you. Mr. Pascrell.
    Mr. Pascrell. One question I have, and anybody can respond 
to it, is how many--not how many. We know how many folks have 
been intercepted that were smuggled into this country. I would 
like to know for the majority, where are the majority coming 
from?
    Mr. Clark. The vast majority are coming from Mexico just 
because of the contiguous border. I think we probably have the 
larger numbers as geographically we move south through Central 
and South America, just because of the difficulty of maritime 
smuggling in terms of getting here to the United States.
    Mr. Pascrell. And that is where most of the networking is 
being done through the Mexican-American borders?
    Mr. Clark. We find that most of the routes are coming 
probably up through Central America, then land routes up in 
terms of the larger networks in the global smuggling mapping, 
heading toward South America, up through Central America or 
some of it going through the Caribbean then by maritime.
    Mr. Pascrell. And that is more of a problem than those that 
are being smuggled in from the Balkans and Russia?
    Mr. Clark. Less so coming to the United States, although we 
do see it on the East Coast. And a lot of that can even be 
through commercial airlines with phony documents and things of 
that nature, not usually in terms of mass numbers.
    Mr. Pascrell. And finally, are you getting cooperation from 
the Mexican government because of the preponderance of this 
networking?
    Mr. Clark. We are. We are getting increased cooperation. In 
fact, the government of Mexico through the TIP program is 
setting up various task forces. We have assigned various ICE 
assets down to Mexico to work with them collaboratively on 
smuggling and trafficking as well.
    Mr. Pascrell. What is the major reason for the smuggling? 
What is the purpose coming from Central America in your eyes?
    Mr. Clark. The organizations, it is always just profit. The 
smuggling organizations, it is pure profit.
    Mr. Pascrell. Are there members, are there citizens 
involved in this, United States citizens?
    Mr. Clark. Not usually as much. It is usually foreign 
nationals.
    Mr. Pascrell. So foreign nationals are setting up this 
whole network on their own without the help of any citizens in 
the United States? Do you believe that?
    Mr. Clark. I am not saying they don't help them. I am 
saying generally it is more foreign nationals involved with it.
    Mr. Pascrell. Thank you.
    Ms. Harris. Thank you. Representative Jackson-Lee.
    Ms. Jackson-Lee. Thank you very much. This is obviously an 
enormously important issue and I am going to have a short 
period of time, and if I can yield to you gentlemen for a 
succinct answer to a question of range.
    Are we at a crisis and to what extent does the crisis 
exist, meaning the porousness of our border and the utilization 
of human smuggling for terrorists activities? I want the 
highest range of crisis. I want to know what problem we are 
dealing with.
    And then secondarily it befuddles me about the ability of 
intelligence sharing with the HSTC. I understand that the ICE 
database may be different from the FBI, and there may not be a 
singular stream of intelligence that is shared so that these 
particular infractions, intrusions into our security system can 
be corrected.
    Would you answer, each of you, the crisis question and 
secondarily the question of the stream of intelligence and 
databases that connect to each other, or are you able to be 
shared? Starting with Mr. Clark.
    Mr. Clark. I would say that the pressure on the border in 
terms of smuggling has increased recently. I think we are doing 
a better job in terms of enhancing the Border Patrol's 
capabilities between the ports, educating and training the 
inspectors at the ports relative to phony documents, on 
enhancing ICE to investigate some of the smuggling 
organizations. But I still think it has been an increasing 
problem.
    Ms. Jackson-Lee. One to 10?
    Mr. Clark. It is hard to say. In terms of comparisons I 
grade it as a 7.
    Mr. Swecker. You know, I hesitate to use the word 
``crisis'' because I think I have a different definition of 
that word. That means, you know, clear present imminent danger. 
I would say there is a serious problem because there is the 
potential for a terrorist cell to come in through an alien 
smuggling organization, come in through that means.
    I will say, however, we haven't found--we have found very 
few instances where that has happened. Most of these, the 19 
hijackers came in legally for the most part. But I would look 
at it as a very gray--
    Ms. Jackson-Lee. Is it an increasing problem from 2001?
    Mr. Swecker. Yes.
    Ms. Jackson-Lee. Okay, thank you. Mr. Gorelick.
    Mr. Gorelick. I would say it is a large problem. And as a 
problem, it is not just dealing with the movement of people. If 
you look at alien smuggling or the illicit movement of people, 
it is also connected to terrorism, movement of terrorists, 
possible movement of terrorists.
    It is connected to corruption of public officials, both in 
the United States and overseas. Alien smugglers can't move 
people across borders unless they corrupt immigration and 
border authorities.
    Ms. Jackson-Lee. One to ten?
    Mr. Gorelick. It is a 7.
    Ms. Jackson-Lee. I didn't get your number.
    Mr. Swecker. I will go with the 7 also. It is an important 
problem that needs to be addressed.
    Ms. Jackson-Lee. Does anyone want to talk about--in 
concluding because of the bells--the whole idea of intelligence 
sharing, the lack of a singular database between ICE, FBI to 
even share this information.
    Mr. Clark. It is difficult relative to what the database 
has captured to say there should be one database to serve all 
agencies especially when you consider what the FBI does in 
terms of counterterrorism is of a much more classified nature 
than what ICE does generally in a criminal capacity.
    I would say something like the Center, where all the 
intelligence is there and available to the agencies, gets us 
over some of the problems relative to the databases or data 
banks not actually comporting to fuse everything into one.
    Mr. Swecker. It is systemic throughout government that all 
of the agencies have their own databases. But I will say there 
is an intelligence sharing method or network. It is a 
classified system that all intelligence analysts tap into and 
pull information from. So we all post our information on this 
network and any analyst that participates in this network can 
pull the information out.
    Mr. Gorelick. As a fusion center we have looked at this 
problem, and particularly the fact that various agencies have 
their various databases and even different communication 
systems. It is not just broken up between the agencies but also 
broken up between classifications, whether it is unclassified 
or classified information you are dealing with, you have two 
separate systems.
    We have also discussed taking all the information and 
trying to put it into one system in the Center, but that would 
take a lot of money and effort.
    Ms. Jackson-Lee. Let me thank you, let me ask unanimous 
consent to ask to have a statement by Susan Ginsberg, 
nonresident Fellow, Migration Policy Institute, put into the 
record.
    Ms. Harris. Absolutely. I was going to do that, yes. Thank 
you, Ms. Jackson-Lee. Your time has expired. I, too, concur 
with the Ginsberg insertion into the record. She has a number 
of issues and concerns that she has addressed as well as 
solutions.
    [The statement of Ms. Ginsburg follows:]

                             For the record

            Submitted to the Committee on Homeland Security

         Subcommittee on Management, Integration and Oversight

          The 9/11 Reform Act: Examining the Implementation of

               the Human Smuggling and Trafficking Center

                             March 8, 2006

                                   By

                             Susan Ginsburg

                           Nonresident Fellow

                       Migration Policy Institute

    Mr. Chairman Rogers, Ranking Member Meek, and Members of the 
Subcommittee, it is a privilege to provide testimony for your 
consideration about the vital homeland security mission of the Human 
Smuggling and Trafficking Center (HSTC). My testimony discusses 
terrorist travel facilitation as a core aspect of homeland security 
that must be addressed together with human trafficking and human 
smuggling.
    Congress' statutory establishment of the HSTC in the Intelligence 
Reform and Terrorism Prevention Act (IRTPA) provides the foundation for 
critical US action against the global illicit travel market. The 
illicit travel market is fueled by three diverse and devastatingly 
harmful groups: terrorists, who in order to function must travel to 
gain access to countries but also remain clandestine; human 
traffickers; and human smugglers.
    The mission of the HSTC reflects the fact that the triple threat of 
terrorist access, human degradation and rights violations, and the 
violence of transnational organized smuggling crimes, derives in part 
from a single set of overlapping and interwoven illicit travel 
practices. The HSTC's commitment to three purposes simultaneously may 
be unusual (typically, government entities focus on one type of 
security issue at a time, for example, narcotics traffickers, illegal 
dealers in arms, and terrorist groups), but focusing on only one of the 
three paramount threats associated with travel would curtail the full 
flow of information necessary to effectively defend against and attack 
any one of these three threats.
    The HSTC has already demonstrated that it can contribute 
significantly to the protection of homeland security and the rule of 
law, but much can be done to strengthen this vital organization.
    As a team leader and senior counsel on the staff of the 9/11 
Commission, I had overall responsibility for the investigation of and 
recommendations concerning the entry of the September 11th terrorists 
into the United States. During the 1990s, I developed national crime 
control policy as an advisor to the Under Secretary for Enforcement in 
the Department of the Treasury, which oversaw US Customs, ATF, and 
FinCEN among other agencies. In that capacity I worked closely with the 
Department of Justice on crime control policy issues and programs. In 
the late 1970s I served in the Department of States? Bureau of 
International Narcotics Matters, now the Bureau of International 
Narcotics and Law Enforcement (INL). Thus, I have experience with the 
challenge of establishing innovative and joint efforts among several of 
the agencies and departments whose contributions are essential for the 
success of the HSTC in its vital homeland security mission. Recently, I 
have written a report, Countering Terrorist Mobility: Shaping an 
Operational Strategy, published by the Migration Policy Institute. This 
report places the role of the HSTC in the context of the larger 
operational strategy to counter terrorist travel. I am providing the 
Subcommittee with copies of this report for your consideration.
    The HSTC exemplifies the promise and problems of the new post-9/11 
security information organizations that are based on a concept of 
jointness--or fusion, or integration--and which are vital to the 
homeland security of the United States. Joint centers are needed to 
connect the dots at the tactical and investigative level and to provide 
a comprehensive view of the big picture to support clear strategic 
analysis. Joint centers combine classic national security and crime 
control concerns, bridge the classified and unclassified environments, 
and confront organizations that cross foreign and domestic borders.
    But organizations that depend on collaboration are challenged in 
today's government environment because the individual agencies that are 
essential to joint efforts are pitted against each other in the 
competition for resources and historically have derived a sense of 
identity and accomplishment from winning contests of institutional 
culture. Thus, it all too often goes against the incentive structure 
now in place, and against the grain, to contribute resources to and 
share authority for activities through joint efforts.
    Because of the essential role of the HSTC in attacking the global 
illicit travel market to protect homeland security, and the challenges 
the HSTC faces, Congress? thoughtful oversight and decisive legislation 
are important and timely.

THE ILLICIT TRAVEL MARKET
    Terrorists' need to move around globally--to go to and from 
meetings, recruit, train, purchase and transport material, reconnoiter 
and strike--exposes them to potential detection. Terrorist operations 
therefore dedicate specific resources and attention to travel, or 
mobility, or movement--three words for the same functional element, the 
need to gain access to countries and facilities, which must be done 
without being detected. For the United States and its security 
partners, terrorist mobility represents an aspect of the terrorist 
threat to be defended against by improving security processes, but it 
is also simultaneously a vulnerability of terrorists that must be 
exploited.
    Terrorist travel facilitators, human traffickers, and human 
smugglers all systematically exploit legitimate international travel 
channels and national entry and residence channels. All these different 
types of groups are engaged in interwoven travel schemes and criminal 
enterprises. Human smuggling and trafficking organizations can be 
detected and intercepted, and aspects of the system they rely on 
subjected to greater regulation and penalties. Terrorist travel 
facilitators, their terrorist clients, and partner criminal enterprises 
can also be targeted and interdicted through law enforcement, 
regulatory processes, intelligence operations, and diplomacy that 
advance security standards, the rule of law, and enforcement and 
intelligence cooperation in travel channels.
    The world of illicit travel and terrorist travel tactics is as 
intricate, specialized, interwoven, and evolving as the world of money 
laundering and terrorist finance. The need to travel creates an illicit 
world market fueled and exploited by the range of terrorists and 
transnational criminal groups that organize travel on a large or small 
scale.
    Although the activities of drug traffickers, arms traffickers, 
money launderers, and terrorist financiers are familiar in public 
policy circles and in the media, the idea of an illicit travel market 
and the image of a terrorist travel facilitator as the foundation of 
terrorists? ability to travel, cross borders, and enter the United 
States and other countries are not as widely recognized.
    The 9/11 Commission came to focus on terrorist travel because it 
undertook a detailed examination of the visa and port of entry 
processes as they functioned to protect the homeland leading up to 9/
11. Osama bin Ladin's senior leadership and internal terrorist travel 
facilitators largely planned al-Qa'ida travel tactics, managed al-
Qa'ida travel, and controlled the travel of the 9/11 conspirators. 
Through the research process the Commission learned, however, that the 
travel, entry, and residence tactics of the conspirators involved in 
the 9/11 plot and of the 19 hijackers themselves, were part of a much 
bigger picture of global illicit travel. Al Qaeda travel tactics were 
similar to and to some degree overlapped with the larger illicit travel 
market.
    Some of these terrorist mobility tactics and illicit travel market 
services are described in some detail in a 9/11 Commission Staff Report 
entitled 9/11 and Terrorist Travel, authored by Thomas R. Eldridge, 
Walter T. Hempel II, Janice L. Kephart, Kelly Moore, and myself, with 
the assistance of Joanne M. Accolla. This report identified up to 21 
different entry and embedding tactics used by terrorists during the 
1990s and in support of the 9/11 plot, from the use of multiple fake 
passports to facilitation by corrupt border officials and the use of 
multiple types of immigration fraud.
    Travel facilitator networks that support terrorist travel rely on a 
continuum of participants that overlap with human smuggling and human 
trafficking networks. Among many other illicit travel channels, travel 
facilitator networks include:
        <bullet> Actual terrorists who are travel facilitators and 
        their couriers, such as those individuals the 9/11 Commission 
        documented were running the al-Qa'ida passport office in 
        Kandahar;
        <bullet> Cells that are trafficking in documents as a source of 
        funds for operations;
        <bullet> Corrupt passport and border officials who are either 
        subject to bribery or are sympathetic;
        <bullet> Organized criminal organizations, involved in human 
        smuggling and trafficking or transporting narcotics or weapons 
        material who might provide services to terrorists for payment 
        or exchange; and
        <bullet> Travel agencies and employer organizations that may 
        wittingly or unwittingly assist terrorists.
    The illicit travel market is above all characterized by its global 
nature and by the fact that countering terrorist mobility requires an 
understanding of global patterns and actions, and a coordinated 
response to them. For example, an Algerian is arrested in France for 
supplying forged documents to Iraqi-bound volunteers. Jamaah Islamiyah 
leader Hambali is arrested in Thailand carrying two Spanish passports. 
Belgian, French, and Portuguese passports are also available in 
Bangkok. Couriers who supply them may be Greek or Dutch.
    Understanding and interdicting these patterns of activity is at the 
core of US counterterrorism, crime control, and immigration management. 
Are terrorists favoring passage by land, sea or air routes, licit or 
illicit channels? What smuggling organizations are exploited by 
terrorists? What illicit travel businesses are terrorist-operated? How 
can we penetrate the aliases, documents and legends that cloak 
terrorist identities? Which embarkation points--Canada or Europe, 
Mexico or Pakistan--are used for what purposes?

ILLICIT TRAVEL INFORMATION AND INTERDICTION: CONGRESSIONAL ACTION
    The US government can only obtain a comprehensive and accurate 
picture of illicit travel networks and tactics by simultaneously 
collecting and analyzing information from the various elements of the 
illicit travel market. Given the interwoven schemes and routes that 
terrorists, human traffickers, and smugglers use, it is not possible to 
separate counterterrorism from crime control or vice versa due to the 
fact that the investigative and intelligence leads from one group?s 
exploiting of travel channels to that of another group are too useful.
    The combined intelligence, information, and investigative approach 
will enable policymakers and operational managers to decide what 
diplomatic, legal, enforcement, and special operations should be taken 
to interdict and dismantle terrorist organizations, human trafficking 
organizations, human smuggling organizations, and illicit travel 
service providers which are part of or selling services to terrorist 
and other criminal organizations.
    To build this comprehensive picture using an all-source approach, 
the government must draw on the resources and skills of the legacy 
intelligence community; crime control organizations at the federal, 
state, and local levels; the border and immigration agencies; and the 
counterparts of our intelligence, crime control, and border agencies in 
foreign countries.
    The Human Smuggling and Trafficking Center was first conceived of 
in the late 1990s in response to a new awareness of the violence 
associated with large-scale human smuggling and the horrors of human 
trafficking. It was established in early 2001. As its name reflects, 
the HSTC's initial purpose was to provide integrated intelligence on 
human smuggling and trafficking organizations to support actions 
against them by the US government, foreign governments, and 
international organizations. The 9/11 attacks demonstrated the 
catastrophic consequences of terrorist exploitation of global travel 
pathways and US border systems. Recognizing that terrorists use 
criminal travel networks to support their activities, the Department of 
State, the Department of Justice, and the Department of Homeland 
Security signed a charter for the HSTC that added efforts against 
terrorist travel facilitation to its mission.
    The HSTC thus incrementally and logically has become a major 
resource for attacking the illicit travel sphere as a means of finding 
terrorists and constraining terrorist mobility; deterring and 
controlling the crimes of human trafficking and smuggling; and through 
those functions supporting immigration management and migrant safety.
    The 9/11 Commission recognized that terrorist travel and crime 
control are inseparable because terrorist travel tactics intersect the 
illicit travel market that also services human smugglers and 
traffickers and other criminals. The Commission therefore recommended 
that: ``The United States should combine terrorist travel intelligence, 
operations, and law enforcement in a strategy to intercept terrorists, 
find terrorist travel facilitators, and constrain terrorist mobility.'' 
It stated specifically that the small terrorist travel intelligence 
program was producing disproportionately useful results and should be 
expanded.
    Continuing this bi-partisan concern about terrorist travel and the 
illicit market in travel services, Congress in Sections 7201-2 of the 
Intelligence Reform and Terrorism Prevention Act:
        <bullet> mandated a new terrorist travel strategy;
        <bullet> required an assessment by the Human Smuggling and 
        Trafficking Center of US vulnerability to travel and 
        immigration system exploitation;
        <bullet> established the Human Smuggling and Trafficking Center 
        as a statutory entity; and
        <bullet> directed that federal agencies report back to Congress 
        on how to make the Human Smuggling and Trafficking Center more 
        effective in countering terrorist travel.
    Congress enacted that legislation in December 2004. Over a year 
later, it is now an appropriate time to assess what has been and still 
must be done to make the HSTC an effective fusion center that provides 
a platform for a strong and coordinated US government attack on illicit 
travel by terrorists, human traffickers, and human smugglers.

HSTC: MISSION AND REQUIREMENTS
    The vital homeland security mission of the Human Smuggling and 
Trafficking Center is to counter these tactics, broadly speaking, in 
three fundamental ways including:
        <bullet> Facilitating broad dissemination of all-source 
        information about the illicit travel market and its terrorist, 
        human trafficker, and smuggler elements;
        <bullet> Preparing operational, tactical, and strategic 
        assessments, with the emphasis on ongoing field support and an 
        annual risk (threat and vulnerability) assessment for 
        participating agencies and for Congress; and
        <bullet> Identifying issues for further joint attention.
    To grow into its full potential as a center for the development of 
information, assessments, issue identification, and initiative support 
relating to terrorist travel, human trafficking, and human smuggling, 
several aspects of the HSTC need strengthening. These relate to its: 
(1) mission; (2) senior management; (3) governance; and, (4) resources.
    The suggestions below for strengthening the HSTC in these four 
areas are offered with two caveats.
    First, the ideas offered are not intended to supplant the ongoing 
discussion among HSTC officials and their Steering Group supervisors 
and with Congress, but to contribute some ideas to the mix. Second, the 
goal of these suggestions is to make some immediate improvements based 
on currently recognized issues, rather than to solve all problems for 
all time. This is especially so in that Congress' own committee 
structure makes it challenging to take into account all the critical 
interests at stake by various congressional committees in one piece of 
legislation.
    With these caveats, some possible approaches to strengthening the 
HSTC are discussed below.

Mission
    The HSTC's mission should be clarified. The original Charter for 
the HSTC created one set of mandates, and then the Intelligence Reform 
and Terrorist Prevention Act (IRTPA) created a second set. These 
mandates define purposes and they define functions or tasks. All the 
desired purposes and functions should be placed on the same legislative 
footing.
    The three current purposes are to counter terrorist travel, human 
trafficking, and human smuggling. It is important to have all three 
purposes considered together as one entity that can integrate 
information and identify opportunities for action in the multiple 
spheres of law enforcement, intelligence, policy, diplomacy, and even 
military affairs, and ensure that attention to the various issues is 
balanced among the interwoven concerns of national security, human 
rights, and crime control.
    Congress should consider including one additional purpose to this 
list: countering the illicit travel market and illicit travel 
facilitators. This purpose is the common denominator that relates to 
and supports the missions of countering terrorist travel, human 
trafficking and human smuggling, and would support US action against 
these and other transnational criminal activity, such as smuggling of 
all kinds. Countering the illicit travel market is therefore a homeland 
security mission that is consistent with and supports the existing 
national security, human rights, and crime control purposes of the 
HSTC.
    The functions of the HSTC listed in the Charter and/or IRTPA 
include:
        <bullet> serving as a clearinghouse and disseminating all-
        source information;
        <bullet> supporting select initiatives, including of the 
        National Counterterrorism Center;
        <bullet> preparing strategic assessments;
        <bullet> identifying issues for possible enhanced interagency 
        attention; and
        <bullet> coordinating and ensuring coordination among all 
        relevant agencies.
    As with the HSTC's purposes, the functions currently established 
only by Charter should be embodied in legislation. These five 
purposes--informational, tactical, strategic, issue identification for 
joint operations and policymaking, and coordination--all make sense.
    The role of the HSTC in strategic assessment requires 
clarification. The annual strategic assessment that Congress required 
in the IRTPA is described as a vulnerability assessment, to identify 
vulnerabilities that may be exploited by international terrorists, 
human smugglers and traffickers, and travel facilitators. It would be 
helpful if in conjunction with this vulnerability assessment by the 
HSTC there was a threat assessment that focused on the actual threats 
posed by terrorist group mobility capability and intent, human 
smugglers, human traffickers, and other travel facilitators. (With 
respect to terrorism, such an assessment requires the strategic 
operational direction of, and likely most or all of the actual 
preparation by, personnel of the National Counterterrorism Center, 
pursuant to the IRTPA.) A threat assessment will support government 
leadership in setting priorities as to which vulnerabilities should be 
addressed to reduce actual threats, a process commonly referred to as 
risk assessment.

Senior management
    Directing the HSTC is a major responsibility. Congress should 
ensure it is exercised by a senior manager with relevant operational, 
policy, and managerial experience. The key requirements of the Director 
and Deputy Director, apart from such management capability, are a 
commitment to collaboration or joint functioning, and strategic vision 
for the organization.

Governance
    The governance and organizational structure of the HSTC are unique 
and still provide a ``demonstration project'' for a successful joint 
center. An interagency Steering Group provides guidance and the 
Director and Deputy Director who manage HSTC's operations are 
accountable through the Steering Group to the Secretary of State, 
Attorney General, and Secretary for Homeland Security.
    This tripartite management structure has been critical to 
maintaining appropriately balanced focus on the two original 
operational arenas for the HSTC: human trafficking, an issue 
principally associated with the Department of State, and human 
smuggling, an issue principally associated with legacy INS and the 
Department of Homeland Security. The Attorney General--as the executive 
of the Department of Justice, the supervisor of US attorneys and the 
FBI, a partner with the Secretary of State in US participation in 
international legal matters, and the executive in charge of the 
immigration appeals process--has institutional interests in enforcement 
and regulation relating to both human smuggling and trafficking that 
will tend to lead to a balanced commitment to both sets of goals.
    This governance structure has two weaknesses that merit correction 
by Congress.
    First, in a structure where the two pre-9/11 policy arenas are 
linked to operational authorities of supervisory departments, the HSTC 
legislation does not provide for a Steering Committee member and 
Cabinet-level authority with comparable operational authority in the 
arena of global terrorist travel facilitation. This omission undermines 
the terrorist travel facilitation mission of the HSTC. To correct this 
problem legislatively, a designee of the Director of National 
Intelligence, likely from the National Counterterrorism Center (NCTC), 
should be added to the Steering Committee, and the Director of National 
Intelligence should be added as the Cabinet-level equivalent. The 
formal presence of the NCTC will not only benefit the terrorist travel 
mission but also the two other missions, because information that 
supports the interdiction of terrorists overseas and the constraining 
of terrorist travel may also assist in the dismantling and deterring of 
human trafficking and smuggling organizations. For example, the core 
intelligence community may learn of a corrupt passport official who is 
facilitating terrorist travel, human smuggling, and human trafficking.
    Second, the governance structure of the HSTC appears to place its 
Director in an untenable management structure. He or she is accountable 
through a committee to three Cabinet heads, and as a practical matter 
already to four, since the NCTC reporting to the DNI is responsible for 
strategic operational planning relating to terrorism. When the three or 
four Cabinet level executives are multiplied by the numerous 
responsible Congressional committees, the Director's ability to make 
management decisions is rendered even more unworkable on a day-to-day 
basis and it becomes unstable over time.
    Although the Steering Group could be comprised of a group of 
results-oriented individuals who might be personally committed to 
collaboration, the formal reporting structure is likely to undermine 
even the best intentions. The Director will inevitably be caught in the 
bind of having to meet competing and irreconcilable requirements when 
the Cabinet sponsors of the component missions of the HSTC demand their 
prioritization. The Director confronts a situation in which if he or 
she does not submit, the Cabinet head can cut off resources. If one 
Department is satisfied with the priorities, one of the others is 
likely not to be. When the Director's home agency is involved, lack of 
satisfaction can impose a personal career penalty.
    A solution to this problem is for the HSTC Steering Group, as 
augmented by the DNI designee, to be chaired by a member of the staff 
of the Homeland Security Council (or National Security Council). The 
HSC/NSC staff role would be to ensure that the activities of the HSTC 
effectively transcend the sum of its parts and contribute to the 
homeland security. This would allow full development of the terrorist 
travel facilitation, human trafficking, human smuggling, and general 
illicit travel missions.
    Assigning an HSC/NSC staff member to a chair position would permit 
more rapid build-up of the HSTC as it would allow for more rapid 
resolution of most conflicts. To the extent there are issues that 
require Cabinet-level attention, such as the annual HSTC risk 
assessment, the HSC/NSC Steering Group chair is positioned to staff a 
Principals?-level meeting.

Personnel and Other Resources
    To fulfill its statutory missions, including supporting actions 
against terrorist travel facilitation, the HSTC requires sufficient 
personnel, access to all relevant informational pipelines, appropriate 
legal authorities, and adequate, consistent funding.
    The HSTC is a new entity that responds to the post-9/11 recognition 
that institutional barriers must be dismantled to permit efficient 
collaboration in joint missions. This goal will not be achieved without 
a commensurate investment.
    Currently three Cabinet departments engage in negotiations to 
reimburse one bureau for its support to the HSTC. While this was 
appropriate as a seed funding mechanism, the HSTC has been vulnerable 
to the vagaries of funding by its Charter sponsors. Therefore, the most 
important next legislative step is to place the HSTC on a secure 
funding base, with a specific authorization and appropriation. There 
are many possible ways to establish a permanent funding mechanism for 
the HSTC, but a core principle should be that HSTC be able to reimburse 
agencies for their costs in supporting the HSTC.
    There should also be career incentives, and at a minimum no 
disincentives, for working at the HSTC. Because the HSTC is 
quintessentially a joint mission with priorities that extend beyond 
those of home agencies, there is a risk that home agency managers will 
treat assignment to the HSTC as a disadvantage or marginal to career 
advancement. HSTC service should not pose a risk to careers and 
preferably should represent an important step toward home agency 
leadership.
    At present, the goal should be to double the number of staff at the 
HSTC, with the foreseeable scale of staff required being on the order 
of 100 people, a number greater than ten times the current staffing 
level. Approximately a third of these should be intelligence analysts, 
with the remainder of operational personnel including a mix of agents, 
attorneys, diplomats, border agents and inspectors, and immigration 
fraud officers. There are approximately twenty agencies whose 
authorities and expertise make their participation in the HSTC 
essential to fulfill its fusion mission.
    Data systems and legal authorities also must be commensurate to the 
informational and operational support responsibilities of the HSTC. 
Like other homeland security functions, the HSTC will ultimately 
require more substantial office space.

    CONCLUSION
    The gap between a realistic vision of what the US government must 
accomplish through the HSTC--reduce the vulnerability created by the 
terrorist and criminal groups that perpetuate and exploit illicit 
travel networks--and the support provided to the HSTC today is 
daunting. Congress should immediately move to close this gap. By 
developing shared information, supporting investigations, operations 
and other active countermeasures, and promoting working interagency and 
international partnerships, the HSTC can become a vital component of 
homeland security that will repay the US investment many times over in 
protecting against terrorist attacks, securing international travel 
channels, and upholding the rule of law.

    Ms. Harris. I want to also state that Chairman Rogers has 
indicated to the ranking member that this subcommittee will 
continue on its examination of this issue.
    And finally, after hearing the testimony, I was really 
encouraged when we originally created this Center. I was 
optimistic of the breakdown of the stovepipe of information and 
that this was going to be that interoperable sort of agency.
    I think in theory that is happening with the information. 
My concern still remains if we are actually accomplishing those 
key issues for terrorist travel, sex trafficking and human 
smuggling in the field. I am concerned about the staffing 
issues, the funding issues, and the lack of maybe focused 
leadership in this arena because there is not that kind of 
accountability to make sure that the rubber meets the road, 
that these things are being accomplished.
    But I sincerely want to thank the witnesses for their 
valuable testimony. I wish there were some more tangible things 
that resulted from this hearing that we knew we could go do. We 
will continue on our quest.
    We will leave these issues open and the members of the 
committee may have additional questions for the witnesses, and 
we will ask you to respond in writing. The hearing record will 
be open for 10 days.
    The committee stands adjourned.
    And once again thank you very much for your input.
    [Whereupon, at 3:25 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
